CERTIFICATE OF SERVICE
I, Erin G. Barnhart, hereby certify that on this 17th day of September, 2021, a copy of the
foregoing Response to the Warden’s Unopposed Application to Recall and Stay the Mandate of
the United States Court of Appeals for the Sixth Circuit Pending Resolution of the Warden’s
Petition For a Writ of Certiorari was served, in compliance with the parties’ agreement, via
email on the following Counsel for Respondent Tim Shoop:
Benjamin Flowers
Solicitor General
Samuel Peterson
Deputy Solicitor General
30 E. Broad Street, 17th Floor
Columbus, Ohio 43215
614-466-8980
benjamin.flowers@OhioAGO.gov
samuel.peterson@OhioAGO.gov
All parties required to be served have been served.

/s/ Erin G. Barnhart__________________________
Erin G. Barnhart
Assistant Federal Public Defender
Counsel for Respondent August Cassano

